ftNo.

u-nt

f
a v*'l

[S

•a

supreme court, US.
FILED

AUG 14 2021

IN THE
SUPREME COURT OF THE UNITED STATES

^..OFFICE OF THE Cl frit

t'

MICHAEL MURPHY

— PETITIONER
(Your Name)
vs.
RICHARD SARTA,ET AL

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

COURT OF APPEALS OF TENNESSEE

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
MICHAEL MURPHY

(Your Name)
P.O.Box 1365

(Address)
Morristown,TN 37816

(City, State, Zip Code)
(423) 581-1022

(Phone Number)

►

r
0

M7ED
WHETHER THE TENNESSEE STATE TRIAL AND APPELLATE COURTS ARE USING
A CONSTITUTIONALLY VAGUE PROCEDURE_,TENN.R.CIV.P. 59.04, TO DENY
CITIZENS SIMILARLY SITUATED HEREIN AN OPPORTUNITY TO BE HEARD
AND TO VIOLATE THEIR CIVIL RIGHTS WITHOUT RECOURSE AND THEIR
CONSTITUTIONAL RIGHT TO A JURY TRIAL,THEREBY THWARTING JURISDICTION AND
BLOCKING THEIR ACCESS TO JUSTICE.

i

j

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ x! All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RICHARD SARTA,
CHRISTINA SARTA(TIMM), AND
REBECCA KECK D/B/A ,
INGENUITY 101

RELATED CASES
NONE

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A decision of court of appeals of Tennessee
APPENDIX B
AppENQix C

DECISION OF STATE TRIAL COURT OF TENNESSEE

DECISION OF SUPREME COURT OF TENNESSEE

APPENDIX D
APPENDIX E
APPENDIX F

iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

ALBERT V. FRYE 145 S.W.3D 526(TENN. 2004)

5

GASSAWAY V. PATTY TENN.APP. 604 S.W.2D 60

5

LEGENS V. LECORNU W2013-018-COA-R3-CV,
2014 WL 2922358(CT. APP. JUNE 26,2014)

5

PARKS V. MIDATLANTIC FINANCE CO. INC. 343 S.W.3D 792
(TENN.CT.APP. 2011)

5

STATUTES AND RULES
TENNESSEE RULE OF CIVIL PROCEDURE 59.01

4 ;5

TENNESSEE RULE OF CIVIL PROCEDURE 59.04

4,5

TENNESSEE RULE OF APPELLLATE ‘PROCEDURE 4(B)

4,5

OTHER

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
-;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix___ a_ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x) is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
—; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ;______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____ _
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was March 17,2021.
A copy of that decision appears at Appendix _C__. (See March 19,2020 Order,
589 U.S.)

[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

TENNESSEE RULE OF CIVIL PROCEDURE 59.04

4,5

TENNESSEE RULE OF CIVIL PROCEDURE 59.01

4,5

TENNESSEE RULE OF APPELLATE.PROCEDURE 4(B)

4,5

3

STATEMENT OF THE CASE
A JURY TRIAL CONCERNING A PREMISES LIABILITY PERSONAL INJURY CASE ON
JUNE 6,2019,RESULTED IN DEFENDANTS PREVAILING.PLAINTIFF MICHAEL MURPHY FILED
A MOTION FOR NEW TRIAL ON JULY 18,2019,AND AN AMENDED MOTION FOR NEW TRIAL
ON OCTOBER 8,2019,ALLEGING AMONG 12 ASSIGNMENTS OF ERROR THE FAILURE TO DECLARE
A MISTRIAL DUE TO DEFENDANTS’ COUNSEL’S MISCONDUCT IN OPENING REMARKS TO THE JURY
PANEL INCLUDING PRESENTING A SIGN MARKED "NO" IN LARGE RED INK AS A REPLICA OF
THEIR JURY VERDICT FORM,EXCLUDING RES IPSA LOQUITUR AS A THEORY OF LIABILITY,
ALLOWING AN EXPERT WITNESS TO BASE HIS OPINION ON A REPORT BY AN INSURANCE
ADJUSTOR EMPLOYEE(WHO DID NOT TESTIFY),AND MISCONDUCT FROM TWO JURORS WHO
WITHHELD CRUTIAL AND PERTINENT INFORMATION IN VOIR DIRE REFARDING IMPARTIALITY,
INCLUDING A JUROR WHO IT WAS LATER DISCOVERED HAD BEEN SUED IN AT LEAST 12 PRIOR
LAWSUITS AS A DEFENDANT OR OFFICER OF HIS EMPLOYER(COUNTY JAIL),WITH SEVEN OF THE
LAWSUITS CURRENTLY PENDING AT THE TIME OF TRIAL.
A MOTION TO ALTER OR AMEND WAS FILED BY PLAINTIFF ON DECEMBER 5,2019.BASED
UPON TENN.R.CIV.P. 59.04 AND 59.01,AS WELL AS TENN.R.APP.P. 4(B),WHICH WAS DENIED
ON FEBRUARY 13,2020.THE TRIAL COURT HAD PREVIOUSLY DENIED THE MOTION FOR NEW
TRIAL,AND FOR COSTS,IN ONE HEARING AND IN ONE ORDER ENTERED.AN APPEAL WAS TAKEN
ON MARCH 16,2020,TO THE STATE COURT OF APPEALS,AND ON OCTOBER 14,2020,IT DECIDED
THAT IT LACKED JURISDICTION BY FINDING THAT THE TENN.R.CIV.P. 59.04 WAS
SUPPOSEDLY A "MOTION TO RECONSIDER" AND THEREFORE DID NOT TOLL THE APPEAL PERIOD.
THE STATE SUPREME COURT DECLINED TO GRANT AN APPEAL ON MARCH 17,2021.
THE MATTER IS NOW BEFORE THIS HONORABLE UNITED STATES SUPREME COURT.

4

REASONS FOR GRANTING THE PETITION
THE TENNESSEE STATE COURTS OF APPEAL AND THE TRIAL COURTS USE
TENN.R.CIV.P. 59.04 AS SYSTEMIC SUBJECTIVE MEANS TO DENY CITIZENS ACCESS
BEFORE THE COURTS BY DECLARING THAT THESE ARE "MOTIONS FOR RECONSIDERATION"
AND THEREFORE DO NOT QUALIFY AS MOTIONS TO ALTER^OR AMEND AND SUBSEQUENTLY
DO NOT TOLLTHE APPEAL PERIOD UNDER TENN.R.CIV.P. 59.04 AND 59.01,AND
TENN.R.APP.P4(B).LEAVING PARTICIPANTS WITHOUT ANY RECOURSE TO BE HEARD.
THESE RULES ARE CONSTITUTIONALLY VAGUE AND USED TO BLOCK THE RIGHT TO A
JURY TRIAL.
ALLOWING STATE COURTS TO ACT IN THIS MANNER GOES BEYOND THE PARTICULAR
FACTS OR PARTIES INVOLVED HEREIN,AND IS AN ISSUE OF NATIONAL IMPORTANCE TO
THE PUBLIC AND EFFECTS OTHERS SIMILARLY SITUATED.
THERE IS NO LOGIC OR JUSTICE IN STATE DECISIONS SUCH AS LEGENS V. LECORNU
W2013-01800-COA-R3-CV.2014 WL 2922358(CT.APP. JUNE 26,2014) AND ALBERT V. FRYE
145 S.W. 3D 526(TENN. 2004) THAT SEEK TO DENY THE OPPORTUNITY TO BE HEARD AND
CONSIDERED ON APPEAL.AT THE SAME TIME,STATE DECISIONS RUN COUNTER AND DECLARE
THAT A COURT SHOULD EXERCISE ITS DISCRETION IN FAVOR OF ALLOWING A CASE TO BE
HEARD ON ITS MERITS IN PARKS V. MIDATLANTIC FINANCE CO.INC. 343 S.W.3D 792
(TENN.CT.APP. 2011),AND ALLUDES TO THE FACT OF THE STATE SUPREME COURT'S POLICY
OF LIBERALITY IN RESOLVING DOUBT AS TO THE PROPER CONSTRUCTION OF STATUTES AND
RULES REGULATING APPEALS IN FAVOR OF THE RIGHT OF APPEAL IN GASSAWAY V. PATTY
TENN. APP. 604 S.W. 2D 60.

i

I

I

5

I

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
PRO SE

Date:

AUGUST 13,2021

6

i

